CERTIFICATE OF SERVICE
I hereby certify that, on this 8th day of November, 2019, I caused one copy of the foregoing
Application For Extension of Time to File a Petition for a Writ of Certiorari, in Robles v. United
States, No. ____, to be served by e-mail and by First Class Mail, postage pre-paid, on:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Lawrence Middleton
Assistant U.S. Attorney
DOJ - Office of the U.S. Attorney
312 North Spring Street
Los Angeles, CA 90012
lawrence.middleton@usdoj.gov

I further certify that all parties required to be served have been served.

s/ Erik S. Jaffe______________
Erik S. Jaffe

